              HOSPITAL CLOSURE:            1988 





                     Richard I? Kusserow
                     INSPECTORGENERAL




OEl-O4-89-01810                                 MARCH 1990 

                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) is to promote the efficiency, effective­
ness,and integrity of programs in the United StatesDepartment of Health and Human Ser­
vices (HHS). It does this by developing methods to detect and prevent fraud, waste, and
abuse. Created by statutein 1976, the Inspector General keeps both the Secretaryand the Con­
gressfully and currently informed about programs or management problems and recommends
corrective action. The OIG performs its mission by conducting audits, investigations, and in­
spections with approximately 1,400 staff strategically located around the country.


                 OFFICE OF EVALUATION AND INSPECTIONS

This report is produced by the Office of Evaluation and Inspections (OEI), one of the three
major offices within the OIG. The other two are the Office of Audit Servicesand the Office of
Investigations. Inspections are conducted in accordancewith professional standardsdevel­
oped by OEI. These inspections are typically short-term studies designed to determine pro-
gram effectiveness,efficiency; and vulnerability to fraud and abuse.

The purpose of this inspection, entitled “Hospital Closure: 1988,” is to describe the phenome­
non of hospital closure in the United States.

This inspection was performed under the direction of Linda Herzog, the Regional Inspector
General of the Region IV Office of Evaluation and Inspections. Participating in the project
were:

Atlanta Region                               Headquarters
Ron Kalil, Project Leader 
                  CathaleenAhem
Jim Wilson 
                                 Linda Moscoe
Peggy Daniel 

JeanDufresne 

Ruth Reiser 

Doug Marshall 

Joe Townsel 

Betty Davis 

Chris Koehler 

Art Jones,Ph.D. 

JosephPatterson 

Liz Roper 

                                EXECUTIVE SUMMARY 



PURPOSE

This report describes the phenomenon of hospital closure in the United States. It examines the
characteristicsof, reasonsfor, and impact of closures in 1988, and compares hospitals closed
in 1988 with those closed in 1987.
BACKGROUND

The closure of hospitals in recent years hasgeneratedincreasing public and congressional
concern. At the request of the Secretaryof Health and Human Services, the Office of
Inspector General (OIG) prepared a report in May 1989 describing the nationwide
phenomenon of hospital closure in 1987. The Secretarythen asked the Inspector General to
continue analysis of hospital closures to determine trends and effects of the phenomenon.
FINDINGS

This inspection found that in 1988:

Eighty-eight general, acute care hospitals closed- 19 more than in 1987, They were located
in 29 States. Four of thesehospitals have sincereopened.

Four new general, acute care hospitals opened in 1988. Eight hospitals which closed in prior
yearsreopenedin 1988.

Fifty of the closed hospitals were rural; 38 were urban. In relation to their numbers
nationwide, a higher percentageof rural hospitals (1.9%) closed in 1988 than urban hospitals
(1.3%).

Hospitals that closed were significantly smaller and had lower occupancy rates than the
national averagesfor both rural and urban hospitals.

The averageMedicare utilization of hospitals that closed is not significantly different from
Medicare utilization of all hospitals nationwide. The averageMedicaid utilization among
hospitals that closed is slightly higher than national norms.

The reasonsfor hospitals closing in 1988 are identical to those reported for hospitals closing
in 1987. No single factor or event causedhospitals to close. Rather, a number of factors
gradually weakened the financial condition of thesehospitals. Hospitals that closed were
reported to have had:

        .	   declining revenuesdue to fewer admissions,lower third-party reimbursement,
             and increasing uncompensatedcare; and



                                                i
       .	   rising costsdue to increasing demandsfor new medical technology, skilled
            personnel, and facility repair and renovation.


Emergency and inpatient medical care is available nearby for most communities where
hospitals closed.




                                            ii
                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION .............................................‘..............~..................................~.......                   I

FINDINGS
      Extent and Nature of Hospital Closure ...........................................................                            3
             How Many Closed? ...................................................................................                  3
             How Many Opened’ ...................................................................................                  4
             What Were the Closed Hospitals Like’ ....................................................                             4
             Why Did They Close? ...............................................................................                   7
      Impact of Hospital Closure ..............................................................................                    8
             How Many Patients Were Affected? ........................................................                             9
             Are Inpatient Care and Emergency Services A vailable? .................... I 0
             What Is the Building                  Used For Now? ....................................................             I2
      Differences          Between Hospitals Closed in 1987 and 1988 .......................... I3
             Number CIosed    Y        ........................................................................................   I3
             Size ...........................................................................................................     I3
             Occupancy ...............................................................................................            I4
             Utilization .................................................................................................        I4
      Summary .........................................................................................................           I5

ENDNOTES ............................................................................................................. I6

APPENDICES
      Appendix A: Methodology                         ...........................................................................A-I

      Appendix B: 1988 Hospital Closure Tables ............................................... B-I
                                      INTRODUCTION 



PURPOSE

This report describesthe phenomenon of hospital closure in the United States. It examines the
characteristicsof, reasonsfor, and impact of closuresin 1988, and compareshospitals closed
in 1988 with those closed in 1987.

BACKGROUND

In the past severalyears, the closure of general, acutecare hospitals has generatedincreasing
public and congressionalconcern. According to a number of recent studies,more hospitals
are expectedto close their doors in coming years. The Office of Inspector General (OIG)
releaseda report in May 1989 describing the phenomenon of hospital closuresin the United
Statesin 1987. That study found that 69 hospitals closed in 1987. They were small and had
low occupancy rates. When the hospitals closed, few patients were affected. In most cases,
inpatient and emergency medical care was available nearby.

The 1987 hospital closure study was presentedto the Secretaryof the Department of Health
and Human Services (HHS) and the U.S. House Ways and Means Health Subcommittee. The
Secretaryaskedthe Inspector General to continue analysis of the phenomenon. He wanted to
learn about possible differences in the rate of hospital closures, and in the characteristics and
circumstancesof hospitals closing their doors. This inspection and a companion inspection,
“Effects of 1988 Rural’Hospital Closureson Accessto Medical Care” (OEI-04-89-00742),
respond to those questions.

SCOPE

This study identifies specific characteristicsand experiencesof short-term, acute care
hospitals that closed in 1988.

For purposesof this study, the following definitions were used:

Hospital: A facility that provides general, short-term, acutemedical and surgical inpatient
services.

Closed Hospital: One that stoppedproviding general, short-term, acute inpatient servicesin
1988. If a hospital merged with or was sold to another hospital and the physical plant
remained open for inpatient acutecare, it was not considereda closure.
If a hospital closed and reopenedin 1988, it also was not considered a closure. If a hospital
closed in 1987, reopened in 1988, and closed again in 1988, it was counted asa closure for
1987 but not again in 1988.



Information for this study was obtained from contacts with State hospital associations,State
licensing and certification agencies,State health planning agencies,officials associatedwith
closed hospitals and hospitals nearby, and local public officials. Information which describes
the characteristics of the hospitals was obtained from HCFA data bases.

Appendix A describesinformation collection methods.
                                         FINDINGS


The study of hospitals closed in 1988 found that:
       .	    Eighty-eight general, acutecare hospitals closed in the United Statesduring
             1988 - 1.6 percent of all hospitals.

       .	    Nineteen more hospitals closed in 1988 than in the previous year. The
             characteristics of, reasonsfor, and impact of closures were similar.

       .	    Most hospitals that closed were small and had low occupancy. When a hospital
             closed, few patients were affected. Most had emergency and inpatient medical
             care available nearby.


EXTENT AND NATURE OF HOSPITAL CLOSURE

How Many Closed?

Of the 6,800 hospitals nationwide, 5,449 are listed on HCFA’s data baseas general,
short-term, acute care, Medicare-participating hospitals. During Calendar Year 1988,88 of
theseclosed - 1.6 percent of the hospitals nationwide.
                      .


I    HOSPITALS IN U.S.:                                                   5,449
     CLOSED IN 1988:                                                         88 (1.6%)
                                                                                                 I


The closed hospitals had a total of 5,893 available beds. The number of beds lost when
hospitals closed equaled 0.65 percent of general, acutecare beds nationwide.

The closed hospitals were located in 29 States. Texashad the most closures (18). Other
Stateswith multiple closuresincluded Alabama (7), California (5), Illinois (5), Louisiana (5),
Missouri (5), and West Virginia (5). Eleven Stateshad only one closure. Appendix B has a
list of the 1988 closures by State.
In relation to their numbers nationwide, a higher percentageof rural hospitals (1.9%) closed in
1988 than urban hospitals (1.3%).

I                                              I       RURAL           I       URBAN

I    HOSPITALS IN THE U.S:                               2,593                   2,856

I    CLOSED IN 1988:                           I            50 (1.9%) 1             38 (1.3%)


How Many Opened?

Only four new general, acutecare hospitals openedduring 1988. These openings added 475
bedsto the national supply of beds.

In addition to the new openings during 1988,8 hospitals that closed prior to 1988 reopened in
1988, adding another 391 beds.

Four hospitals that closed in 1988 have since reopened,adding 233 beds.

What Were the Closed Hospitals Like?

Size: Hospitals that closed in 1988 were small. More than three-quartershad 100 bedsor
fewer.
                       .

                             SIZE OF CLOSED HOSPITALS                      ,


     Number of Beds




                                              4

Closed hospitals in both rural and urban areasare significantly smaller than their national
averages.

                       HOSPITALS THAT CLOSED WERE SMALL

             + OF BED8
         -mn .
         --

         260 -

         200 -

          160-

          loo-

           SO-

             0
                      RURAL HiXBPlTAL8                 URBAN HOSPITALS




Occupancy: Occupancy ratesfor closed nual and urban hospitals were lower than the
national averages.l .,


                             OCCUPANCY RATES WERE LOW




             60%



             40%



             20%



                 0%
                         RURAL HOSPI’lAL8                URBAN HOSPITAL8

                         -   NATIONAL AYQ     m    CLOSED HOSPITAL Ay<L




                                                  5

Medicare and Medicaid Utilization: No significant difference exists in the average
Medicare utilization among hospitals that closed and all hospitals nationwide. The average
Medicaid utilization among hpspitals that closed is slightly higher than nationwide averages
for rural and urban hospitakL
                                                 MEDICARE
                     % UTIUZATION
             60% -
                                      4a8%    49.9%
                              /          -
             SD%

             40%

             WI

             20%

              10%

               0%
                              RURAL HWPITMZ)                  URBAN HOSPITAUI

                                  -   NATIONAL IVQ     m   CLOSED HOSPITM   WQ.



                         I,




                                                 MEDICAID

                     % UTlLlUTlON
              80%




               --
                                  RURAL H&PITM                URBAN HOSPITAL8

                                  -    NATIONAL rWQ.   m   CLOSED HOSPITAL Aya.
Why Did They Close?

The reasonsfor hospitals closing in 1988, asreported by many health care professionals
during the course of this study, are identical to the reasonsdescribed in the OIG report
“Hospital Closure: 1987.” The report, releasedin May 1989, indicated no single reason for
hospital closure. Rather, a number of factors causeda kind of “domino” seriesof failures
which eventually led to the closure of the hospital.

       .     Declining Occupancy

       .     Lagging Revenues

       .     Rising Costs

As occupancy declined, revenueslagged, but costscontinued to rise. Operating margins
shrank, and ultimately there was no choice but to sell, merge with another hospital, or close
the doors. The following is an abbreviated version of the reasonsreported in “Hospital
Closure: 1987”:

Declining Occupancy: Hospital occupancy is a function of the number of admissions and the
lengths of hospital stay. Respondentscite fewer admissions asthe main causeof declining
occupancy.

Physicians control where patients are admitted for inpatient care. A number of reasonswere
given for dwindling physician referrals to most of the 88 hospitals that closed in 1988.

       .     Physician availability is a problem in rural areas.

       .     Physicians lost confidence in the local hospital.

       .     Patients, too, preferred other hospitals.

       .	    Doctors may be admitting patients lessreadily due to more careful scrutiny of
             hospital admissions by Medicare Peer Review Organizations.

       .     Competition among hospitals is intense.

       .     Increasedmobility hasexpandedpatients’ choices among hospitals.

       .	     Medical advancesand new technology have allowed someproceduresthat
              formerly required a hospital stay to be performed on an outpatient basis.




                                                7

Lagging Revenues: Lower occupancy meansless income for hospitals. Respondentsalso
mentioned thesereasonsfor declining hospital revenue:
       .	    Patients without hospital insurance,or with inadequate insurance, create
             substantial lossesfor the hospital.

       .     Insurers are better controlling their costs.

       .	    Medicare payment differentials basedon hospital location generally result in
             rural hospitals receiving lower payments than urban hospitals.

Rising Costs: According to many respondents,hospital costs are rising despite efforts to curb
them. These are some of the important factors cited by respondents:

       .     New medical technology is a major capital expense.

       .	    Labor costs are increasing, and competition is keen for scarcenursing and
             technical staff.

       .	    Deteriorating facilities require major capital investment to renovate and
             modernize.

Health care planners, regulators, and hospital administrators contacted during the course of
this inspection described thesefactors--occupancy, revenue,and cost-as intricately related
and interdependent. Hospital viability was said to dependon the stability of all three. The
weakening of one may begin a chain reaction eventually leading to hospital closure.

SmalI hospitals are least able to defend against this downward spiral. Hospitals which closed
in 1988 were significantly smaller than average. All of them had encountered some or all of
the problems described here.


IMPACT OF HOSPITAL CLOSURE

In communities where a hospital closed in 1988, this study assessed:
       .     the number of patients affected by the closure of the hospital;

       .	    the availability of inpatient care and emergency medical servicesto communities
             in which hospitals closed, and

       .     the current useof the closed hospital facility.




                                                8

How Many Patients WereAffected?

Few patients were affected by the closure of hospitals in 1988. In the year prior to closure,
rural hospitals had an averagedaily censusof 11patients, and the urban hospitals had an
averagedaily censusof 34 patients.



                          WHEN HOSPITALS CLOSED,
                     HOW MANY PATIENTS WERE AFFECTED?

                                                        Rural                   Urban
                                                        Hospitals               Hospitals
     Average Number of Beds                             40.2                 102.2
     Average Occupancy Rate                         %26.7%                  x

     Average Patient Census                             10.7                    33.6



Medicare utilization data were analyzed to determine the number of elderly patients affected
by hospital closure in 1988. In closed rural hospitals, only five Medicare patients were in the
hospital on an average&dayprior to closure. Closed urban hospitals had an averagedaily
Medicare censusof 15.



                      WHEN HOSPITALS CLOSED, 

             HOW MANY MEDICARE PATIENTS WERE AFFECTED? 


                                                        Rural                   Urban
                                                        Hospitals               Hospitals
     Average Patient Census                             10.7                    33.6
     Average Medicare Utilization Rate              x                       x 43.2%

     Average Medicare Patient                            5.3                    14.5




                                               9

Are Inpatient Care and Emergency ServicesAvailable?

This study determined the availability of medical care to residents of communities where
hospitals closed. It did not evaluate the accessibility and utilization of the nearestavailable
services.

To more fully addressthe question of access,a companion study was conducted. “Effects of
1988 Rural Hospital Closures on Accessto Medical Care” determines how accessto medical
care in rural communities was affected when local hospitals closed in 1988.

Availability of inpatient and emergency medical care, for purposesof this report, was
measuredin miles from the closed hospital to the nearestinpatient and emergency facility.

Inpatient Care: In most communities where a hospital closed in 1988, inpatient hospital care
is available nearby.

Three-quarters of the 50 rural communities where a hospital closed can get inpatient care
within 20 miles of the closed hospital. Residentsof four communities must travel more than
30 miles for inpatient care:

       .     Ekalaka, Montana                            36 miles

       .     Kearny, Arizona                             50 miles
                     1
       .     Metaline Falls, Washington            -     50 miles

       .     Cuba, New Mexico                            80 miles

The communities of Ekalaka, Kearny, and Cuba have emergency care servicesto stabilize
patients prior to transporting them to acutecare hospitals. Although Metaline Falls has no
physician in the community, there is ambulance service and a clinic with a nursepractitioner.

In all but three urban communities where a hospital closed in 1988, inpatient care is available
within 10 miles of the closed hospital. In more than half of those communities, another
hospital is less than a mile away. The remaining three communities are within 20 miles of an
inpatient hospital.




                                                10 

                         AVAILABILITY OF INPATIENT CARE
              Distance from Closed Hospital to Nearest Open Hospital
\
                                                     Rural                  Urban
     Within 10 Miles                                 20 (40%)              35 (92%)
     11 - 20 Miles                                   17 (34% j              3(8%)
     21- 30 Miles                                     9 (18%)               O(O%)

I    More Than 30 Miles


Emergency Services: In all 50 casesof closed rural hospitals, emergency care facilities are
available within 30 miles of the closed hospital.



       NEAREST EMERGENCY SERVICES TO CLOSED RURAL HOSPITALS

     DISTANCE                                                       Number of Closed
                                                                    Hospitals
                       .
     Same Town                                                              17
     Within 10 miles                                                        10
     11 - 20 miles                                                          16
     21 - 30 miles                                                           7
     More than 30 Miles                                                      0
     TOTAL                                                                  50


In 33 of the 38 urban communities where a hospital closed, emergency care facilities are less
than 3 miles from the closed hospital. The remaining five urban communities are within 20
miles of the nearestemergency care facility.




                                              11 

What Is the Building UsedFor Now?

Forty percent of the closed hospital facilities are currently being used. These facilities, while
ceasing to operate asacute care hospitals, continue to provide servicesto the community. For
example:
       .	     Tucker County Hospital facility in Parsons,West Virginia continues to provide
              outpatient and 24-hour emergency services;

       .      GastonEpiscopal Hospital in Dallas, Texas is now a rehabilitation hospital;

       .     Woodruff County Hospital in McCrory, Arkansas is now a nursing home;

       .	    Frank Cuneo Hospital in Chicago, Illinois has beenconverted to a shelter for
             abusedchildren; and

       .	    JamestownHospital in Jamestown, New York is currently an alcohol
             rehabilitation and mental health facility.



                           CURRENT USE OF CLOSED HOSPITALS
                      II

                                                       Number of Former Hospitals*
     Current Use of Building
                                                       Rural                   Urban
     Reopened Hospital
     Specialty Treatment Facility 

     (e.g. chemical dependency) 

     Long-Term Care Facility 

     Outpatient Services/Clinic 

     Offlces 
                                          1                       6
     Social Services 
                          I       2                I      3                   I
     Vacant 


*Duplicate count. In nine of the 88 former hospitals more than one service is now offered.




                                                12 

Plans are being made for 13 of the currently vacant hospitals to be used for other types of
health care services. For example, the English Park Medical Center in Marion, South Carolina
will become a nursing home. Fairview Hospital in Bayou Vista, Louisiana is being converted
to a mental health and substanceabuseclinic.

Plans are being made for severalof the closed facilities to reopen as acute care hospitals. For
example, Mt. Linton Hospital in Metaline Falls, Washington will reopen as soon asthe
community recruits a physician.


DIFFERENCES BETWEEN 1987 AND 1988 HOSPITAL CLOSURES

Number Closed

Nineteen more hospitals closed in 1988 than in 1987,13 more mral and 6 more urban
hospitals.

Thirty-five Stateshad at least one hospital close in the 2-year period. Twenty-one Stateshad
hospitals close in both years.

Fifty percent of all the hospitals closed in the 2-year period were in Texas (32), Alabama (lo),
California (lo), Illinois (9), Louisiana (9), and Michigan (8). Appendix B lists, by State, the
number of hospitals closed in the 2-year period.
                       1
Size

Urban hospitals that closed in 1988 had, on average,19 more beds than those that closed in
1987. There was no significant difference for rural hospitals in the 2-year period.
                                  SIZE BY NUMBER OF BEDS
                                   Closed Hospital Averages
                   t OF BEDS
             120                                                      102.2

             100

              80

              00               42.0    40.2
                           /
              40

              20

               0
                           RURAL H&PlTALB              URBAN HOSPITALS
Occupancy

The occupancy rate of closed hospitals, on average,was slightly higher in 1988 compared to
closed hospitals in 1987.

                                      OCCUPANCY 

                                Closed Hospital Averages 





                      RURAL HO2PITALS                URBAN HOSPITAL2




Utilization           .*
Medicare and Medicaid utilization was, on average,slightly higher for closed hospitals in
1988 compared to closed hospitals in 1987.




                                              14 

                                         MEDICARE 

                                  Closed Hospital Averages 


             *Am  % UTILIZATION
             WV-U




             80%

             40%

             80%

             20%

             10%

                   0% :
                          RURAL HOSPITAL8                 URBAN HOSPITALS

                                        ml@987        ml288



                                         MEDICAID 

                                  Closed Hospital Averages 

                 % UTILIZATION
            60% 1




              -I




                          RURAL HiX3PlTAL8                URBAN HOSPITAL8




SUMMARY

Eighty-eight hospitals closed in 1988. While more hospitals closed in 1988 than in the
previous year, the characteristicsof, reasonsfor, and impact of closures were similar. Most
hospitals that closed were small and had low occupancy. When a hospital closed, few patients
were affected. Most had emergency and inpatient medical care available nearby.



                                                 1

                                       ENDNOTES 



1. 	   Hospital occupancy rate is defined asthe actual number of patient days divided by the
       total bed days available. National occupancyrate is defined as the sum of all
       hospitals’ occupancy rates,divided by the number of hospitals.


2. 	   Average Medicare utilization of closed urban and rural hospitals is defined as the
       percent of Medicare patient days compared to the total patient days for each hospital,
       summed and divided by the number of hospitals. National averageMedicare
       utilization is the percent of Medicare utilization of each hospital, summed and divided
       by the total number of hospitals. Medicaid utilization is calculated in the sameway.




                                               16 

                                        APPENDIX A 



METHODOLOGY

Phenomenon of closure
To determine how many hospitals closed in 1988, we contacted all 50 State licensing and
certification agencies. We also contacted State hospital associationsand State health planning
agencies. When a closed hospital met the study’s definition or when there were questions, we
made contact with officials associatedwith the closed hospitals and officials associatedwith
the hospital nearestto the closed hospital.

To determine the number of hospitals in the United States,we used the Hospital Cost Report
Information System (HCRIS) maintained by the Health Care Financing Administration
(HCFA). We included only the general, short-term, acute care hospitals under Medicare’s
ProspectivePayment System (PPS) in the universe. There were 5,449 hospitals listed. This
was the current universe, at the time of inquiry, of short-term, acutecare, general hospitals on
HCRIS for the fourth year of PPS (PPS4).

Characteristics of closed hospitals
To analyze characteristicsof closed hospitals, we usedHCFA’s HCRIS data. Cosr reports
were not available for 3 of the 88 closed hospitals becausethey were not Medicare providers
in the years prior to closure. For the remaining 85 hospitals, we used the latest cost reports
prior to closure containing sufficient data. For example, if a hospital closed in May 1988 and
its accounting year was on a January-Decembercycle, we used the provider’s January 1, 1987
to December 31, 1987 report.

Reasonsfor hospital closures
We contactedofficials of the following organizations to determine the reasonsfor 1988
hospital closure:

       .     State hospital associations;

       .     State health planning agencies;

       .     Statecertification and licensing agencies;

       .     closed hospitals; and

       .     nearesthospitals to closed hospitals.




                                               A-l
Impact of hospital closure
We limited the “impact” issuesto distancefrom the closed hospital to the nearest
still-operating hospitals and to emergency services. To determine this, we contactedmany of
the following:
       .     former hospital administrators, board members, and/or staff; 


       .     hospital administrators and/or staff at the nearesthospitals; 


       .     local police and health officials; 


       .     local government officials; 


       .     State health planning agencies; 


       .     Statecertification and licensing agencies;and 


       .     Statehospital associations. 





                                               A-2 

                            APPENDIX B


          NUMBER OF HOSPITAL CLOSURES: 1987 and 1988


                                     Number Closed
Ranked
BvState               l#Bz               UB            2-Year Total
Texas                 14                 18               32
Alabama                3                  7               10
California             5                  5               10
Illinois               4                  5                9
Louisiana              4                  5                9
Michigan               6                  2                8
Missouri               1                  5                6
West Virginia          1                  5                6
Wisconsin              2                  4                6
Arkansas               3                  2                5
Minnesota              5                  0                5
New York               2                  3                5
Massachusetts          2                  2                4
Tennessee         ’    0                  4                4
Washington             3                  1                4
Arizona         I      1                  2                3
Georgia                1                  2                3
Montana                1                  2                3
Oklahoma               1                  2                3
Idaho                  1                  1                2
Nebraska               2                  0                2
New Jersey             1                  1                2
Pennsylvania           0                  2                2
Ohio                   1                  1                2
Oregon                 1                  1                2
Alaska                 1                  0                1
Colorado               1                  0                1
Kansas                 0                  1                1
Maine                  0                  1                1
North Carolina         0                  1                1
North Dakota           1                  0                1
New Mexico             0                  1                1
 South Carolina        0                  1                1
 South Dakota          0                  1                1
 Virginia               1                 0                1

TOTALS                69                 88              157




                               B-l
             1988 HOSPITAL CLOSURES BY NAME AND LOCATION 

                                                             Rural/
HosDital                           Citv            State     Urban

Henry County Hospital              Ab beville      AL        rural
First Health Courtland             Courtland       AL        rural
ChambersCounty Hospital            Lafayette       AL        rural
Perry Community Hospital           Marion          AL        rural
North Mobile Community Hospital    Satsuma         AL        urban
Medical Park West                  Birmingham      AL        urban
Columbia Regional Medical Center   Andalusia       AL
Woodruff County Hospital           McCrory         AR        rural
Lee Memorial Hospital              Marianna        AR        rural
Phoenix General Hospital           Phoenix         AZ        urban
Kennecott Samaritan                Keamy           AZ        rural
AMI Clairemont CommunityHospital   San Diego       CA        urban
Community Hospital Sacramento      Sacramento      CA        urban
RossGeneral Hospital               Ross            CA        urban
Hayward Hospital                   Hayward         CA        urban
Metropolitan Hospital              Los Angeles     CA        urban
Heard Community Hospital           Franklin        GA        rural
Turner County Hospital             Ashburn         GA        rural
Marsh VaIley Hospital              Downey          ID        rural
White Hall Hospital                White Hall      IL        rural
Hospital of Englewood              Chicago         IL        urban
Frank Cuneo Memorial Hospital      Chicago         IL        urban
St. Anne’s Hospital                Chicago         IL        urban
Mary Thompson Hospital             Chicago         IL        urban
Axtell Christian Hospital          Newton          KS        rural
Fairview Hospital                  Bayou Vista     LA        rural
Gueydon Memorial Hospital          Gueydon         LA        rural
TensasMemorial Hospital            Newellton       LA        rural
Regent Hospital Feliciana          Clinton         LA        rural
PleasantHill General Hospital      PleasantHill    LA        rural
Brookline Hospital                 Brookline       MA        urban
Farren Memorial Hospital           Montague        MA        Nld
Castine Community Hospital         Castine         ME        Nl-d
Bay Area Medical Center            Menominee       MI        rural
Brent General Hospital             Detroit         MI        urban
Lindell Hospital                   St. Louis       MO        urban
University Hospital                KansasCity      MO        urban
Levering Hospital                  Hannibal        MO        rural
St. Francis Hospital               Marceline       MO        rural
St. Mary’s North                   KansasCity      MO        urban



                                   B-2 

                                                            Rural/


Mission Valley Hospital               St. Ignatius     MT   rural
Dahl Memorial Hospital                Ekalaka          MT   rural
Blackwelder Memorial Hospital         Lenoir           NC   rural
The Livingston Community Hospital     Livingston       NJ   urban
Cuba Hospital                         Cuba             NM   rural
Jamestown General Hospital            Jamestown        NY   rural
ParsonsHospital                       Flushing         NY   urban
Johnstown Hospital                    Johnstown        NY
NortheasternOhio General              Madison          OH   urban
Cordell Memorial Hospital             Cordell          OK   NE-d
E.P. Clapper Memorial Medical         Waynoka          OK
Eugene Hospital and Clinic            Eugene           OR   urban
University Medical Center             Philadelphia     PA   urban
Scranton StateGeneral Hospital        Scranton         PA   urban
English Park Medical Center           Marion           SC   rural
Ipswich Community Hospital            Ipswich          SD   rural
Scott Memorial Hospital               Lawrenceburg     TN   rural
JohnsonCounty Memorial Hospital       Mountain City    TN   NCil
Smyrna Hospital                       Smyma            TN   urban
St. Mary’s North Hospital             Lake City        TN   urban
King William Health Center            SanAntonio       TX   urban
Gaston Episcopal Hospital             Dallas           TX   urban
Golden Plains Community Hospital      Borger           TX   rural
Milam Regional Medical Center         Cameron          TX   Nl-d
Oakwood Family Hospital               Lubbock          TX   urban
Omni Hospital and Medical Center      Houston          TX   urban
Shiner Hospital                       Shiner           TX   rural
Flow Memorial Hospital                Denton           TX   urban
Whitcomb Memorial Hospital            Grand Prairie    TX   urban
Robertson Medical Center              Heame            TX   Nl-d
Bastrop Hospital                      Bastrop          TX   rural
Taft Hospital District                Taft             TX   urban
Marion County Hospital                Jefferson        TX   rural
TeagueGeneral Hospital                Teague           TX   rural
Kirbyville Community Hospital         Kiibyville       TX   Nl-d
Comfort Community Hospital            comfort          TX   rural
Landmark Medical Center               El Paso          TX   urban
Hart Clinic Hospital                  Gladewater       TX   urban
Mt. Linton Hospital                   Metaline Falls   WA   rural
Bayfield County Memorial Hospital     Washburn         WI   rural
St. Anthony’s Family Medical Center   Milwaukee        WI   urban
New Berlin Memorial Hospital          New Berlin       WI   urban



                                      B-3 

                                                   Rural/
HosDital                      Citv         State   Urban

First Hospital of Milwaukee   Milwaukee            urban
Tucker County Hospital        Parsons              Nd
Guthrie Memorial Hospital     Huntington           urban
Elizabeth Leonard Hospital    Buckhannon           Nral
Wyoming General Hospital      Mullens              rural
Holden Hospital               Holden               rural




                              B-4 

